<html>
<title> - MARKUP OF H.R. 5803; H.R. 5893, LIBRARY OF CONGRESS SOUND RECORDING AND FILM PRESERVATION PROGRAMS REAUTHORIZATION ACT OF 2008; AND H.R. 5972, U.S. CAPITOL POLICE ADMINISTRATIVE TECHNICAL CORRECTIONS ACT OF 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
MARKUP OF H.R. 5803; H.R. 5893, LIBRARY OF CONGRESS SOUND RECORDING AND 
FILM PRESERVATION PROGRAMS REAUTHORIZATION ACT OF 2008; AND H.R. 5972, 
  U.S. CAPITOL POLICE ADMINISTRATIVE TECHNICAL CORRECTIONS ACT OF 2008 

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                  HELD IN WASHINGTON, DC, MAY 7, 2008

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                              ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-592 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























                    COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member 
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


             MARKUP OF H.R. 5803, H.R. 5893, AND H.R. 5972

                         WEDNESDAY, MAY 7, 2008

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 12:05 p.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Capuano, Gonzalez, 
Davis of Alabama, Ehlers, Lungren, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Michael Harrison, Professional Staff; 
Khalil Abboud, Professional Staff; Janelle Hu, Election 
Counsel; Jennifer Daehn, Election Counsel; Matt Pinkus, 
Professional Staff/Parliamentarian; Kyle Anderson, Press 
Director; Kristin McCowan, Chief Legislative Clerk; Daniel 
Favarulo, Legislative Assistant, Elections; Gregory Abbott, 
Policy Analyst; Fred Hay, Minority General Counsel; Gineen 
Beach, Minority Election Counsel; Ashley Stow, Minority 
Election Counsel; and Bryan T. Dorsey, Minority Professional 
Staff.
    The Chairman.  I would like to call the Committee on House 
Administration to order.
    Before we move to the first order of business, I would like 
to announce I received a communication from Representative Vern 
Buchanan, relating to a request for reimbursement for expenses 
incurred in the recent election contest in the 13th District of 
Florida. I am referring that communication to the task force 
chaired by Representative Gonzalez. The text of that 
communication will appear at this point in the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman.  The first item of business is H.R. 5803, 
introduced by Vice Chairwoman Lofgren, a bill directing the 
Election Assistance Commission to establish a grant program to 
reimburse State and local elected officials for the cost of 
making backup paper ballots available in case of machine 
failure or other emergency situations.
    Rather than make an opening statement, I would like to 
recognize Ms. Lofgren to explain the bill.
    Ms. Lofgren.  Thank you, Mr. Chairman.
    I introduced H.R. 5803 at the request of election advocates 
and election officials as a simple solution to deal with some 
of the problems jurisdictions may face on Election Day. The 
bill provides reimbursement through grants to jurisdictions 
that choose to provide backup paper ballots in the event of 
voting machine failure or some other emergency situation for 
the November, 2008 election.
    The language in the legislation has been crafted, at the 
request of the State and locals, to allow them to decide what 
constitutes an emergency situation. This could mean anything 
from machine failure to long lines to problems with polling 
place staffing. It is fully up to the jurisdiction to determine 
what justifies the use of backup paper ballots and how to 
distribute them.
    As the ranking member, Mr. Ehlers stated on the floor 
several weeks back in reference to voting machines, ``As long 
as people are involved in operating, there are likely to be 
mistakes.'' All this bill does is allow jurisdictions to have a 
contingency plan, backup paper ballots, in case there are 
mistakes by poll workers or another cause, and to determine 
when and how to implement that plan.
    Another provision included in the legislation allows the 
jurisdiction to determine when and how the backup paper ballots 
are distributed to voters. It also allows them to decide how 
voters are notified that they could be voting on a backup paper 
ballot.
    The bill has been drafted in full cooperation with the 
National Conference of State Legislators and the National 
Association of County Officials. These organizations have 
submitted letters of support for H.R. 5803, as has Ohio 
Secretary of State Brunner, and she called it ``meaningful and 
respectful of State authority in election administration 
matters,'' and I would request unanimous consent to submit 
these letters for the record.
    The Chairman.  So ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren.  The bill is supported by a myriad of election 
integrity groups, including People for the American Way, the 
Brennan Center, the Lawyers Committee on Civil Rights, Verified 
Vote, and Counted as Cast. I would like to ask unanimous 
consent to submit their letters of support for the record as 
well.
    The Chairman.  Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren.  Additionally, input was provided by 
disability rights groups, who have told us that the bill has no 
impact on the disability community, and they have approved the 
language. As we have seen, broad support for election-related 
legislation is not easy to accomplish. However, backup paper 
ballots are a unifying factor between election officials and 
election advocates.
    On the floor during the debate of H.R. 5036, our colleague 
from Ohio, Mr. Regula, stated, ``The administration of 
elections is a State and local responsibility,'' and the 
minority whip, Mr. Blunt of Missouri, said, ``The States have 
handled the responsibility of the mechanics of election 
administration well for a very long time.''
    H.R. 5803 is a direct reflection of these statements. It is 
100 percent optional, and the responsibility and mechanisms for 
implementation are left to the State and local officials. The 
bill is a measured and proactive step towards improving the 
system of election administration in November of 2008. If 
record turnouts in the primaries are an indication of turnout 
in November, providing State and local jurisdictions the option 
to have backup paper ballots could mitigate any challenges they 
may face on Election Day.
    The bill helps ensure election integrity and national 
electoral confidence and respects State and local 
jurisdictions' responsibility to administer elections, and I 
hope that we can have bipartisan support for this bill.
    I thank the chairman, and I yield back.
    The Chairman.  Thank you.
    I would now like to recognize the ranking member, Mr. 
Ehlers, for an opening statement.
    Mr. Ehlers.  Thank you, Mr. Chairman.
    While I appreciate the effort of my colleague on this 
committee and I appreciate any effort to support States in 
carrying out the responsibilities to effectively administer 
Federal elections, I believe this bill provides a solution to a 
nonexistent problem.
    She was kind enough to quote me. I would point out that 
people not only make mistakes in the machines, they also make 
mistakes on paper ballots and I have backup evidence that would 
show that.
    Another problem: This bill would provide a staggering $75 
million in grants to States for offering backup ballots to 
voters during emergency situations when, in fact, most States 
already do this. That is my biggest problem with this. Once 
again, we are trying to tell local governments, city clerks, 
county clerks, township clerks that we want them to do 
something when, to the best of my knowledge, most of them are 
doing it. I think we are insulting them by saying, ``This is 
the way we want you to do it.'' In my experience in local 
government, they provided backup ballots in every precinct.
    There was a survey done just recently by the Election 
Center; 39 of the 42 States that responded currently provide 
paper backup ballots in the event of machine failures. So 
virtually all of them are already doing this. I am not sure why 
we have to specify just how they have to do it. Furthermore, I 
am not sure why we have to pay for it if they are already doing 
it out of their own pockets.
    The other factor that is striking here is that the $75 
million presupposes that every precinct would print backup 
ballots for every precinct. A much easier and certainly far 
cheaper solution would be just to require that every precinct 
has one backup ballot, as needed, and they simply make 
photocopies. If they have to have an enumeration scheme, the 
clerks or the poll workers can easily write the number in by 
hand, if necessary. That is certainly a thriftier and better 
way to do it than spending $75 million.
    Our recent hearings have revealed the need for more voter 
education and poll worker training. And Representative McCarthy 
also introduced the Military Voting Protection Act, which will 
help ensure timely delivery of overseas military absentee 
ballots. All of these are good ideas and certainly, I think, 
are a higher priority than this bill proposes in terms of money 
spent.
    Incidentally, I had hoped that the voting bill for the 
military personnel would be taken up today. I hope it will be 
taken up soon.
    We talk a lot here about the environment and greening of 
the Capitol, greening of the Nation. Clearly, it is better to 
not use more paper than we need, and I think simply having 
sample ballots and photocopying is better than printing 
multiple ballots, which in many cases would not be used.
    Mr. Chairman, I do ask that the survey I mentioned be 
entered into the record.
    The Chairman.  Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ehlers.  The final point I want to make is, although I 
cannot support this bill, I remain committed to working across 
party lines to find solutions to the challenges our Nation's 
election administrators face. I look forward to continuing our 
discussions on this important topic.
    I really believe what we should do after the elections this 
year--and I think it is really too late to do anything, and I 
am not sure the Senate will entertain any further bills from 
us, but I really would like to see next year that we really 
start a series of hearings on HAVA, where it has worked well, 
where it has not worked, what changes we might have to make; 
and I think the very first witness we should invite on that 
would be Leader Hoyer because he was the driving force behind 
that bill and did a great deal of the work on preparing the 
bill. I am certain he would be interested in providing his 
input and also his evaluation of any of the things we are 
trying to do.
    With that, Mr. Chairman, I yield back.
    The Chairman.  I thank the gentleman.
    I now call up and lay before the committee H.R. 5803.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman.  Without objection, the first reading of the 
bill will be dispensed with. Without objection, the bill will 
be considered as read and open to amendment at any point.
    Is there any debate on the bill?
    Are there any amendments to the bill?
    Mr. Ehlers.  Mr. Chairman, I have an amendment.
    The Chairman.  You are recognized for 5 minutes.
    Mr. Ehlers.  I have several amendments, Mr. Chair.
    The first one, this amendment will limit the use of grants 
provided in this bill to the creation of a single copy of an 
original paper backup ballot per polling place to be used in 
the event of a failure of a voting system or voting equipment 
on Election Day and in accordance with predetermined 
contingency plans of the affected State or locality.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ehlers.  My rationale is simply that it is not the 
proper role of the Federal Government to pay for preprinting 
backup ballots. Most units of government already do this. It is 
fiscally and environmentally irresponsible for us to pay for 
all the printing of paper ballots. We should say we would do 
the one and photocopy the rest. If necessary, we can pay for 
the photocopying.
    So I offer this amendment and urge its passage.
    The Chairman.  Ms. Lofgren.
    Ms. Lofgren.  I would urge the committee to reject this 
amendment. I think the amendment really defeats the purpose of 
the bill, which is to provide funding to localities to ensure 
enough backup ballots are on hand to allow voters the 
opportunity to cast ballots if machines malfunction or if there 
are other emergency situations.
    I would note, as for the cost that Mr. Ehlers referred to 
in his opening statement, there is an authorized amount of $75 
million in this bill. I would note, according to the 
Congressional Research Service, the United States is currently 
expending $14.1 million an hour in Iraq. $14.1 million an hour. 
So the cost, even if we were to fully fund this--and this is 
just an authorization--is really an afternoon in Iraq and, I 
think, a small price to pay to defend the integrity of the 
American electoral system.
    So I would urge defeat of this bill, and I yield back.
    The Chairman.  Anybody else?
    Mr. Lungren.  Mr. Chairman, I rise in support of the 
amendment, and basically, just to respond to some of the 
comments that were just made, the assumption is that only we, 
the Federal Government, somehow protect the rights of 
individuals in voting, as if no one else does.
    There has been no proven--no record that this bill is 
necessary. A survey of the States shows, I believe, all but 
three take care of this on their own. And this is, once again, 
a suggestion that if it is a serious or important problem, it 
therefore has to be a Federal problem, which is contrary, 
frankly, to what the Founding Fathers had in mind. But we have 
forgotten that so very, very much. Once again, we are giving 
the answer to the locals.
    And you say you had the support of organizations. Well, of 
course; you are going to give them $75 million. I have rarely 
found a local jurisdiction, governor, or anybody else who is 
going to turn down what they consider to be free money. The 
only problem is, money isn't free. It comes from somewhere. It 
comes from our constituents.
    I guess we are going to hear the mantra now that any time 
we object to any spending whatsoever, we are going to compare 
it to an afternoon in Iraq. So I guess we are prepared. Maybe 
we can just say ``ditto'' from now on when that argument is 
going to come up.
    I would hope that we could support the gentleman's 
amendment, which seems to be just a reasonable and relatively 
small amendment to this bill that moves slightly in the 
direction of fiscal sanity.
    So I thank the gentleman for introducing the amendment, but 
I can count the number of people here so I think I know the 
outcome of the amendment.
    With that, I yield back the balance of my time.
    The Chairman.  Mr. Ehlers.
    Mr. Ehlers.  Mr. Chairman, I can count the number of people 
too, but I know many of them are extremely intelligent 
individuals and will vote their conscience on this.
    Mr. Lungren.  I didn't mean to suggest otherwise.
    Mr. Ehlers.  I recognize that.
    My response to the point made is, this is simply a cost-
saving item. The paper ballots will still be there if there is 
an emergency. They would have access to a Xerox machine or copy 
machine. There would be very little cost other than the cost of 
paper.
    The main thing is, you do it only in those cases where you 
need it. You wouldn't print ballots nationwide for all these 
different races and have them on hand, and at the end throw 
them in the recycling bin at considerable expense. So it is 
really a cost-saving amendment. It is not intended to dilute 
the purpose of the bill at all.
    Yield back.
    The Chairman.  Now it is my turn to count them.
    The question is on Mr. Ehlers' amendment to H.R. 5803. All 
those in favor, say aye.
    Any opposed, say no.
    In the opinion of the Chair, the noes have it, and the 
amendment is not agreed to.
    I recognize Mr. Ehlers for amendment No. 2.
    Mr. Ehlers.  Thank you, Mr. Chairman.
    This amendment simply establishes a population-based 
formula for the distribution of any and all funds appropriated 
for the implementation of the grant program established under 
this legislation, and this just makes certain that the Election 
Assistance Commission exercises proper discretion in the 
administration of the program without getting into a type of 
system that might select winners and losers among the States.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ehlers.  So it simply deals with the allocation formula 
and trying to ensure a population-based formula as developed by 
the Election Assistance Commission.
    I yield back.
    The Chairman.  Would anybody like to be recognized?
    Ms. Lofgren.  Mr. Chairman, I would urge a ``no'' vote on 
the proposed amendment. In addition to the population-based 
grant allocation, the amendment would provide funding to States 
only and not to local jurisdictions.
    States actually may decide to initiate a backup paper 
ballot program statewide. But if a State does not, local 
jurisdictions under the bill would still be able to opt into 
the program.
    States and local jurisdictions under the bill should be 
able to independently determine how to administer the backup 
paper ballot program, and the authorized funding should provide 
sufficient funding for the opt-in program.
    The bill has been carefully negotiated with both State and 
local government organizations, and I think this amendment 
would do damage to the balance that has been struck.
    So I yield back.
    The Chairman.  Mr. Ehlers.
    Mr. Ehlers.  If I may just respond, Mr. Chairman, the 
actual intent of the bill is to make sure that the local units 
get the money and that it is not just all given to the State, 
and they allocate it as they wish.
    So if you read the language carefully, it talks about the 
participating units of local government that expect to have the 
amount of the reasonable costs which all participating units of 
local government expect to incur in carrying out such programs.
    So it is not intended to do as the gentlewoman suggested. 
And I urge adoption of the amendment.
    The Chairman.  Anybody else want to be heard on the 
amendment?
    The question is on Mr. Ehlers' amendment No. 2 to H.R. 
5803. All those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the noes have it. The 
amendment is not agreed to.
    Mr. Ehlers amendment No. 3. I recognize the gentleman.
    Mr. Ehlers.  Thank you, Mr. Chairman. This amendment 
directs the Election Assistance Commission's Standards Board to 
determine ``reasonable cost,'' as used in this legislation.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ehlers.  The rationale is very straightforward. This 
amendment ensures that experienced election administrators with 
representation from all States promote uniformity among the 
reasonable costs for which reimbursement is sought under this 
program.
    I believe it is, again, a worthwhile amendment and will 
help with the efficiency.
    Let me emphasize, these are not amendments intended to harm 
the base bill--I have already expressed my opinion on that--but 
simply trying to make it better and more readily administered.
    So I yield back.
    The Chairman.  I thank the gentleman. Ms. Lofgren.
    Ms. Lofgren.  Mr. Chairman, I would urge that the amendment 
be defeated. The language in the bill currently allows State 
and local jurisdictions to receive funds based on their 
expectations of reasonable costs.
    The EAC Standards Board is made up of 110 people; 55 of 
those 110 are State and local officials. The commissioners 
typically draw upon the expertise of the Standards Board 
anyway, and I don't think this amendment really serves any 
purpose or improves the bill.
    I yield back.
    The Chairman.  Anybody else want to be heard on the 
amendment?
    The question is Mr. Ehlers' amendment No. 3 on H.R. 5803. 
All those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the noes have it, and the 
amendment is not agreed to.
    Mr. Ehlers.  Mr. Chairman, I may have to withdraw my 
statement earlier about the obvious intelligence of the members 
of the panel, but I won't. I still believe it to be true.
    The Chairman.  With that, I recognize Mr. Lungren for 
amendment No. 1.
    Mr. Lungren.  Thank you very much, Mr. Chairman.
    My amendment is a simple amendment that tries to maintain 
the balance that was established in HAVA; and in HAVA, the 
right of action is with the DOJ, rather than private rights of 
action, and it is unclear under this bill whether that would be 
retained without my amendment.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lungren.  My amendment simply says nothing in the act, 
including any triggering events such as a failure of a voting 
system or voting equipment or some other emergency situation, 
shall be construed to create a private right of action for any 
individual or create the right for any other class of 
individuals.
    I presume we are not trying to change the basic structure 
that was established under HAVA, and for that reason I have 
included this amendment. I hope it is noncontroversial.
    Ms. Lofgren.  Mr. Chairman, I would urge a ``no'' vote on 
the proposed amendment. The amendment is unnecessary. There is 
no private right of action created by this bill. It is simply a 
grant program to permit States to have the option of providing 
emergency paper ballots and then to receive reimbursement.
    There is no requirement that emergency ballots be provided, 
there is no requirement that States and locals opt in, and 
there is no need for this amendment.
    And I yield back.
    The Chairman.  Any other discussion on the amendment?
    The question is on Mr. Lungren's amendment to H.R. 5803. 
All those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the noes have it, and the 
amendment is not agreed to.
    Mr. McCarthy, do you have an amendment?
    Mr. McCarthy.  Thank you, Mr. Chairman. I guess we will 
stick with tradition here.
    My amendment would restrict the eligibility for funds 
provided under this legislation to those jurisdictions that 
require a voter to provide a photo identification or HAVA form 
of identification as a condition of casting the ballot in an 
election for Federal office. It will only apply to those that 
are going after the money.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Davis of Alabama.
    Mr. Davis of Alabama. One clarification, Mr. McCarthy. Were 
you offering your voter ID amendment or the second amendment 
first?
    Mr. McCarthy. I apologize because on mine it says McCarthy 
amendment No. 1. We might have different numbers.
    Mr. Davis of Alabama. I wanted to speak to the voter ID 
one, but that is not the one you just referenced.
    Mr. McCarthy. No, this is the voter ID, 2-page amendment.
    Mr. Davis of Alabama.  Thank you.
    The only reason, Mr. McCarthy, I wanted to speak to this is 
because I do think that, frankly, this is the most substantive 
of the amendments that deals with an issue which obviously is 
very timely right now. I am opposed to the amendment, but I 
will tell you at the outset, I have, maybe, a little bit of a 
different perspective on the issue than some people do on my 
side of the aisle.
    My election to Congress, as you may know, was against an 
incumbent Democrat whom I defeated in the primary; and he won 
his seat because he achieved the remarkable feat of going from 
160 votes in a primary to 16,000 votes in a runoff in one 
county. He received 160 in Lowndes County, Alabama, and then in 
the runoff. I doubt that was attributable solely to effective 
voter turnout on his part.
    I do recognize the problem of absentee ballot fraud, or 
fraud that occurs at the polls. But I would go back to 
something Mr. Lungren I thought, said, very eloquently when he 
was referring to one of Mr. Ehlers' earlier amendments; and he 
said something to the effect that we ought to be mindful of the 
proposition that if something is a problem, that it 
automatically means it has to have a Federal solution. It is a 
reasonably good instinct.
    Because that is a reasonably good instinct, I don't know 
that we need to federalize voter ID standards in the limited 
context of this bill or, frankly, in any other context. If 
States want to follow the Supreme Court's ruling last week, 
that is up to them, their political prerogative's to do so.
    I will give you one example of how I think the process 
should work. In Alabama, we actually have a strong voter ID 
law. The way we got it, though, wasn't through Federal dictates 
or even through the courts. We got it because of a compromise 
between the legislators.
    One group of legislators very strongly wanted to liberalize 
standards for convicted felons voting. Another group, on the 
other political divide, wanted to strengthen voter ID 
standards. So they reached a compromise. Because of that, many 
people who were previously disenfranchised because of their 
previous convictions for nonviolent crimes can now vote in 
Alabama. But as the tradeoff for that, we have a stronger voter 
ID law.
    In other words, there was bargaining. There was political 
discussion back and forth. Frankly, that kind of federalism is 
something we ought to promote instead of, in this context or 
any other, dictating voter ID standard.
    I yield back my time. I will yield to Ms. Lofgren.
    Ms. Lofgren.  Like you, I think this amendment should be 
defeated. This is a simple bill that provides for a need, but I 
would just like to note that subsequent to this bill moving 
forward legislatively, I would like to discuss with Mr. 
McCarthy--I mean, he is essentially suggesting that we should 
require States to comply with HAVA in their Federal ID efforts, 
and I think that is something worth exploring in the future, 
not as part of this simple bill. But it may be that we can find 
some common ground on that as we continue this hearing.
    Mr. McCarthy.  Would you yield for 1 second? Who controls 
the time?
    Mr. Davis of Alabama.  I will yield.
    Mr. McCarthy.  I appreciate both your comments because what 
I think this amendment does is, it actually does a little of 
what you are both saying because this is not mandating to every 
State. You have had a Supreme Court decision already, so we no 
longer have that question.
    This is saying, if the State wants to go after this grant, 
which you are going to hold Federal elections in, you are 
eligible to have it. The only thing we say, since this is 
Federal money we are providing, these are Federal offices, we 
want to strengthen even what HAVA has already said, or actually 
do what HAVA says to do.
    So I am not mandating in all the States. The State has the 
choice, pay for it themselves; but if they would like to, apply 
for a grant. Before here, I belonged to a lot of nonprofits, 
and when we applied for a grant, there was requirement of what 
you had to do with that money.
    So I don't think it is too far for us, when we have already 
laid out what HAVA is, to say, Here's grant money, take it if 
you would like it; but if you like it, we are going to stick to 
our requirements of what we have said earlier that this body 
would do. Because, yes, you do go in and you vote in Federal 
offices; and yes, the Supreme Court has already ruled and made 
that it was constitutional. So I am not mandating on every 
State.
    So I agree with what Mr. Lungren said earlier, but I do 
believe this is a small step, and at times you can look at this 
from maybe a position of you, Mr. Davis, this could actually be 
a little test pattern, and it would engage States to have that 
discussion.
    In your State, you had the discussion about felons being 
able to vote. Other States may not even have taken that up, so 
they may not have the ability to have that discussion. This may 
actually bring the individuals together to start having the 
debate, without mandating it.
    So I think, from all perspectives, looking at all our 
different ideas, that this actually starts that and could move 
it forward.
    I yield back.
    Ms. Lofgren.  If Mr. Davis would just yield briefly, 
further, I would ask unanimous consent that an Associated Press 
article be submitted into the record. I just think the Supreme 
Court noted there has been no evidence of fraud to justify the 
ID requirement, although they did not intervene at that point 
in the case.
    Apparently, the big losers in terms of not being able to 
vote because of the ID requirement in Indiana were the Catholic 
nuns at St. Mary's Convent in South Bend, Indiana.
    The Chairman.  Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCarthy.  If you would just yield for 1 second, I did 
read that article, but the only thing I would say, my son is 14 
years old, and I had to take my Pacific Gas and Energy bill, my 
electric bill, down to the high school to sign him up.
    To get on an airplane every day, I show an ID as well. 
Having been a part of this committee prior to a member, where I 
went to Lumberton, North Carolina, I went out to California on 
these contested races, I can show you time and time again where 
voter fraud has taken place.
    Mr. Davis of Alabama. If the gentleman would yield for 1 
second. We, in different interest groups, can argue back and 
forth. My proposition is that it does take place.
    But where I disagree with you I think is, the entity and 
the jurisdiction in the best position to determine how big a 
problem it is, is almost certainly the State. It is not the 
Federal Government.
    I take your broader point, but as we all know, in effect, 
the jurisdictional hook for this committee doing anything in 
this area is the fact that they are getting Federal money. I 
would necessarily add to that a substantive argument that it is 
a good thing for them to do it and a constraint we ought to put 
on them.
    If States want to have voter ID laws, actually I think 
Alabama's voter ID law is a good one, and I support it. But if 
States want to have these laws, that ought to be their 
political choice and ought to flow out of their bargaining as a 
result of federalism. And I absolutely agree with Ms. Lofgren's 
point that there is very little evidence that would allow 
Congress to make a finding of fact that this is a national 
problem that entitles us to act, when States have chosen not to 
act.
    I think both you and Mr. Lungren are principled 
conservatives. I would hope you would agree with me that if 
there is no strong congressional finding of a pervasiveness of 
a problem, we ought to let the States act.
    I yield back.
    The Chairman.  Mr. Ehlers.
    Mr. Ehlers.  Thank you, Mr. Chairman.
    Just one clarification: There are two means of becoming 
eligible for the funds, one is a photo identification, which 
everyone has been discussing, but it also says ``or other HAVA-
compliant form of identification.''
    So this amendment does not in any way require a photo ID. 
It simply says that is one of the two methods of satisfying the 
requirement.
    I urge adoption of the amendment, and yield back.
    The Chairman.  Any more debate on the amendment?
    Mr. Lungren.  Move to strike the last word.
    First of all, I appreciate the comments from the gentleman 
from Alabama. I just wish, in addition to agreeing with me, he 
might vote with me occasionally. That would be appreciated.
    The gentlelady caused me to respond because she referred to 
South Bend, Indiana, the home of my sainted alma mater, Notre 
Dame, and the Catholic nuns there.
    Look, I hear this argument all the time, that there is no 
proof that fraud takes place that would require us to require 
IDs. As attorney general of the State of California, I 
established a task force to deal with the problems of voter 
fraud. The problem is, it is so difficult to prove after the 
fact.
    Some of the steps that have been taken in the past to try 
and alert people to the fact that they shouldn't vote if they 
don't have a right to vote have been abused such that they 
appear to be efforts to suppress voter turnout of people who 
otherwise would be eligible.
    Given the fact that you have those two problems, we need to 
do something to establish a means by which we can deter illegal 
conduct, because if someone votes who doesn't have a right to 
vote, they are taking your vote away as surely as if they do 
not allow you to go to the polling place.
    Having gone through this for a number of years and having 
tried to see what we could do to get at the problem of voter 
fraud, I can just tell you, without additional means that allow 
us to somehow deter that illegal conduct and then to prosecute 
it, we will never get at that problem. And so while it is easy 
to say that there is no proof of fraud, it is, in fact, part of 
the problem that proof is so difficult.
    And yet, as the gentleman from Alabama has said, I think it 
stretches credulity to believe that there aren't people out 
there who would take advantage of a system in an illegal way 
for their own benefit, when they know it is so difficult under 
current standards and current laws to prove when they have 
acted in that illegal fashion.
    So I just would relate that because I keep hearing this 
statement at this committee and in other places that there is 
no proof. We have had dogs and cats voting in California, or 
registered to vote; we have had dead people registered to vote. 
The problem is, it is so difficult to prove it after the fact.
    Mr. Ehlers. Will the gentleman yield?
    Mr. Lungren. Yes, I would be happy to yield.
    Mr. Ehlers. I thank the gentleman for yielding. There is a 
considerable amount of fraud that takes place. It is not only 
hard to prove, it is hard to detect.
    But at the same time, it is very important to take whatever 
means we can to deal with the problem. I have always said, if 
any State requires a photo ID, or if we would ever require one 
federally, we should be certain to provide the funds for anyone 
who has difficulty proving their citizenship or proving their 
birth in this country or whatever, that that should be the 
responsibility of the government in establishing the photo ID, 
to help them in that and pay for it so that we don't 
inadvertently exclude anyone.
    I was at the Lumberton, North Carolina, hearing, as was Mr. 
McCarthy; and it was very clear from the testimony that there 
was considerable fraud in that particular election. It does 
take place, and it won't disappear just by naming it. But you 
do have to specifically identify it as it is occurring.
    What particularly bothered me in another contested case I 
was on is that the people voting illegally did not know they 
were voting illegally. These were undocumented aliens who had 
been told by certain groups that, Yes, it is fine; if you are 
living in this country, all you have to do is sign this card, 
you will be registered to vote and you can legally vote. It is 
a terrible risk to the individuals who voted because they could 
be deported immediately for doing that.
    So it is not so much the individual voters I worry about, 
it is the groups who manipulate voters and persuade them to do 
something improperly.
    With that, I yield back.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. I move to strike the last word.
    I don't want to unduly delay this, but I will just note 
that the Supreme Court, hardly a bastion of liberality, noted 
that there is virtually no evidence of fraud in voting in the 
United States. They noted further that the motivations for 
these voter ID laws were, in all likelihood, partisan. They 
declined to intervene in the Indiana case at that stage of the 
proceedings.
    I am disappointed by the decision, although I do understand 
it. I just can't leave these statements out there unrefuted, 
because they are so preposterous.
    I would yield to my colleague, Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Ms. Lofgren.
    I guess the response is, you keep hearing there is no 
evidence of fraud, and I know you seized on that particular 
thing; but I know that there is evidence of disenfranchisement. 
We know that for certain.
    And I know there's reports about nuns not being able to 
vote in the Indiana primary yesterday and so on. I know that in 
Texas there are certain difficulties regarding producing 
certain documentation. So we do know that occurs.
    So the question will always be--there is no doubt that 
there has to be instances of fraud in any human endeavor; the 
question really is, Do those benefits really outweigh the 
costs? And it's not just potential costs. We know it's out 
there.
    The other thing I will say, I think we do have to have a 
good-faith debate on identifying how difficult it is to obtain 
the required documentation that the different ID laws require. 
We really are not certain about that percentage of the 
population that would find it very hard.
    I know--my mother never drove a car. And until she went to 
the retirement home--I guess, my father passed away 7 years 
ago, and that is when she went--she really did not have an ID.
    Now, she does not have a utility bill. She doesn't pay 
utilities. I am not even sure if she has the phone bill in her 
name or whatever. If it wasn't for my sister that took her down 
to the Department of Public Safety and got her a photo ID--she 
now has a photo ID.
    So it is possible, and I understand that; but there are 
many, many individuals, maybe not as fortunate as my mother, 
residing in the community that she does, and in having children 
that have the time and such to do what they did with mom.
    So it is out there. I think we can enter that debate at a 
future date.
    I will say this, though, for the lawyers that are here 
today. The Supreme Court decision is not the last time it is 
going to be looking at voter ID laws. We know that the very 
basis for that lawsuit and the way it went up, but I venture to 
guess, when you do have the disenfranchised voter population in 
specific cases, you will go back up for review. I think it even 
hints at that. So I don't think the debate is totally over.
    I don't believe this is the time. I don't think the 
amendment is the vehicle. And of course, I would intend on 
opposing the amendment.
    I yield back.
    Ms. Lofgren. I yield back, Mr. Chairman.
    The Chairman. The question is on the amendment. All those 
in favor of Mr. McCarthy's amendment No. 1 to H.R. 5803, 
signify by saying aye.
    Any opposed, signify by no.
    Mr. Ehlers. Recorded vote.
    The Chairman. In the opinion of the Chair, the noes have 
it.
    A recorded voted is requested. Would the Clerk please call 
the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    [no response.]
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Yes.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Yes.
    The Clerk. Mr. Brady.
    Mr. Brady. No.
    The Chairman. In the opinion of the Chair, the ayes are 3, 
the noes are 5, and the amendment fails.
    Mr. McCarthy, amendment No. 2.
    Mr. McCarthy. Thank you, Mr. Chairman.
    This amendment is actually pretty simple. It simply states 
that it puts the jurisdictions on notice that this program has 
not been funded.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCarthy. In essence what it says is, this amendment 
conditions the creation of this grant program when the funds 
are appropriate. So no one goes out and spends the effort if 
the funds are not there.
    And I yield back.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. I would urge a ``no'' vote on the amendment. 
The grant program is completely optional and therefore might 
not require the full $75 million that is authorized.
    We almost never, and we should not in this case, have a 
program that States and locals are interested in be contingent 
upon appropriations. Congress often appropriates less than the 
full amount that is authorized. If funding is made available, 
States and locals should be able to apply for reimbursement.
    I think that the amendment does nothing to assist.
    Mr. Davis of Alabama. Would you yield, Ms. Lofgren?
    Ms. Lofgren. I would yield.
    Mr. Davis of Alabama. I would be happy to apply the 
standards in No Child Left Behind, if you want to extend it.
    Mr. McCarthy. I would be glad. I wasn't here during No 
Child Left Behind. But knowing the study of what has gone on 
with HAVA and knowing where States are, I think this is a very 
good standard to have.
    And lots of times they see a bill out there, and these 
States think there is going to be money for it. I just believe 
in making sure we have the money there before someone puts up 
the work, because I hate to see people do work and not get the 
money.
    The Chairman. The question is on the amendment No. 2 to 
H.R. 5803. All those in favor, signify by saying aye.
    Any opposed, signify by saying no.
    In the opinion of the Chair, the noes have it.
      Mr. Ehlers. Recorded vote.
    The Chairman. A recorded vote is requested.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    [no response.]
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Brady.
    Mr. Brady. No.
    The Chairman. The noes are 5, the ayes are 3; the amendment 
fails.
    The Chair now recognizes the vice chairman for the purpose 
of offering a motion.
    Ms. Lofgren. Mr. Chairman, I move to report H.R. 5803 
favorably to the House.
    The Chairman. All those in favor, signify by saying aye.
    Any opposed?
    In the opinion of the Chair, the ayes have it.
      Mr. Ehlers. Recorded vote.
    The Chairman. Ask the Clerk for a recorded vote.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Mr. Capuano.
    Mr. Capuano. Aye.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. Aye.
    The Clerk. Mrs. Davis of California.
    [no response.]
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. Aye.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. No.
    The Clerk. Mr. Lungren.
    Mr. Lungren. No. 
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. No.
    The Clerk. Mr. Brady.
    Mr. Brady. Aye.
    The Chairman. The ayes are 5, the nays are 3, and the 
motion is agreed to.
    Without objection, the motion is considered laid upon the 
table and the bill, reported to the House. Members will have 
two additional days provided by the House to file views if 
requested. Without objection, the staff are authorized to make 
technical and conforming changes to H.R. 5803.
    Mr. Ehlers. Minority views?
    The Chairman. Members will have two additional days 
provided by the House rules for minority views.
    Without objection, the staff will be authorized to make 
technical and conforming changes to H.R. 5803.
    The next bill on the agenda the committee will consider 
today is H.R. 5893, to reauthorize the sound recording and film 
preservation programs of the Library of Congress.
    This important bill, the Library of Congress Sound 
Recording and Film Preservation Programs Reauthorization Act of 
2008, would reauthorize through 2017 the Library of Congress 
Sound and Film Preservation Board. I introduced this bill after 
discussions with the Library of Congress and other interested 
parties regarding the need for reauthorization of these 
programs.
    The National Film Preservation Board was created in 1988 to 
address the rapid deterioration of important films. The Film 
Preservation Board is responsible for identifying and 
preserving films that are ``culturally, historically, or 
aesthetically significant.'' Up to 25 films per year are then 
preserved for future viewing. Along with the National Film 
Preservation Foundation, the Film Preservation Board ensures 
that all generations from all over the world will be able to 
view these remarkable films and feel their power firsthand.
    Building on the success of the Film Preservation Board, the 
National Recording Preservation Board, created by the National 
Recording Preservation Act of 2000, is one piece of a three-
tiered system that ensures the preservation of culturally 
significant sound recordings. There are currently 225 entries 
in the National Recording Registry, and that number will only 
continue to grow. From music to historical speeches, the 
Recording Preservation Board makes certain that future 
generations can experience these historically important and 
powerful sounds.
    It is necessary that we reauthorize the Recording and Film 
Boards to allow them to continue their vital mission and to see 
to it that all those who come after us will be able to listen 
and witness those sounds and sights that are essential to our 
national heritage.
    I would now like to recognize our ranking member for an 
opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I totally agree with the bill and I have a written 
statement here which, in the interest of time, I will enter 
into the record.
    Just let me say I am very pleased with the Library of 
Congress Sound Recording and Film Preservation Program. It 
certainly has to be reauthorized, and they are doing a great 
service to the Nation.
    Frankly, I am worried about the expense. I would love to 
have the movie industry contribute substantially to the 
preservation of the films that they have made a lot of money 
on.
    But that is a separate issue. I just wanted to get that 
comment on the record.
    With that, I will yield back.
    The Chairman. I thank the gentleman. I now call up and lay 
before the committee the bill H.R. 5893. Without objection, the 
bill is considered as having been read and without objection 
the bill is considered as read and open for amendment at any 
point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I have a minor amendment to correct a 
drafting error to ensure that both programs are reauthorized 
for the same period of time. Without objection, the amendment 
is considered and read.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate?
    Mr. Ehlers. Mr. Chairman, it is a good amendment. It brings 
everything into conformity. I urge the adoption of the 
amendment.
    The Chairman. Without objection, the amendment is adopted. 
Thank you.
    Is there any additional debate? Any additional amendments?
    If not, I move that the committee report H.R. 5893, as 
amended, favorably to the House. The question is on the motion. 
All those in favor, signify by saying ``aye.''
    Those opposed ``no.''
    In the opinion of the Chair, the ayes have it, The motion 
is agreed to. The motion to reconsider is laid upon the table 
and the bill will be reported to the House. Without objection, 
the staff are authorized to make such technical and conforming 
changes to H.R. 5893 as may be required to reflect the actions 
of the committee.
    The Chairman. The last item on today's agenda is H.R. 5972, 
the U.S. Capitol Police Administrative Technical Corrections 
Act of 2008. This bill was introduced by me, with Ranking 
Member Mr. Ehlers and the chairman of the Capitol Security 
Subcommittee as original cosponsors.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. As the title suggests, H.R. 5972 does not 
make substantive policy changes for the Capitol Police, but 
rather, the bill corrects drafting errors, modernizes outdated 
terminology, and repeals duplicated and inconsistent provisions 
already on the books.
    My favorite is the long-overdue repeal of an 1868 law 
requiring Capitol Police officers to pay for their own 
uniforms. Congress decided years ago to provide uniforms, but 
failed to repeal the 1868 law.
    Chief Morse requested most of these corrections, and the 
committee staff found a few others. We have amended language to 
address key concerns of the ranking member, the gentleman from 
Michigan; and I understand the ranking member is interested in 
further legislation affecting the Police Board, and I would be 
happy to work with him, and in the future, on all matters 
before us.
    I am aware of no other controversy, and urge the committee 
to support the bill.
    I would now like to recognize Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Again, it is a good bill and I appreciate your support of 
an effort to continue to look at the governance of the police, 
and particularly the board; and I look forward to working with 
you on that.
    Again, to save time, I will move that my complete statement 
be entered into the record.
    The Chairman. Without objection.
    Mr. Ehlers. I just have one other comment. I think the fact 
that we had to do this points out part of the problem we have 
had historically, that the appropriations subcommittee dealing 
with responsibilities of this committee has too often 
introduced laws and passed them without referring them through 
this committee, and that has resulted in a lot of the 
discrepancies that we are trying to straighten out in this 
bill.
    I think we would do much better if all the legislation 
governing it came through the authorizing committee and not 
through the appropriating committee. So I just wanted to say 
that on the record, too.
    The Chairman. I thank the gentleman.
    Any further opening remarks on the measure?
    If not, the Chair now lays before the committee the bill 
H.R. 5972 to make technical corrections to the laws affecting 
certain administrative authorities of the United States Capitol 
Police, and for other purposes, which is now before the 
members.
    Without objection, the bill will be considered as read and 
open to amendment at any point. Is there any debate? Are there 
any amendments?
    There are no amendments. I move that the Committee report 
H.R. 5972 favorably to the House. All those in favor, signify 
by saying ``aye.''
    Any opposed?
    In the opinion of the Chair, the ``ayes'' have it, and the 
motion is agreed to. Without objection, a motion to reconsider 
is laid upon the table.
    Members will have the 2 additional days to provided under 
the rules of the House to file views.
    Without objection, the staff will be authorized to make 
such technical and conforming changes as may be required to 
reflect the actions of the committee.
    There being no further business, the committee stands 
adjourned.
    [Whereupon, at 12:58 p.m., the committee was adjourned.]

</pre></body></html>
